<html>
<title> - FORCED TO FLEE: CARING FOR THE ELDERLY DISPLACED BY WAR, POVERTY AND PERSECUTION ABROAD</title>
<body><pre>[Senate Hearing 110-419]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-419
 
                     FORCED TO FLEE: CARING FOR THE
        ELDERLY DISPLACED BY WAR, POVERTY AND PERSECUTION ABROAD

=======================================================================

                                HEARING

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             WASHINGTON, DC

                               __________

                            DECEMBER 5, 2007

                               __________

                           Serial No. 110-18

         Printed for the use of the Special Committee on Aging



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                     U.S. GOVERNMENT PRINTING OFFICE
42-742 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                       SPECIAL COMMITTEE ON AGING

                     HERB KOHL, Wisconsin, Chairman
RON WYDEN, Oregon                    GORDON H. SMITH, Oregon
BLANCHE L. LINCOLN, Arkansas         RICHARD SHELBY, Alabama
EVAN BAYH, Indiana                   SUSAN COLLINS, Maine
THOMAS R. CARPER, Delaware           MEL MARTINEZ, Florida
BILL NELSON, Florida                 LARRY E. CRAIG, Idaho
HILLARY RODHAM CLINTON, New York     ELIZABETH DOLE, North Carolina
KEN SALAZAR, Colorado                NORM COLEMAN, Minnesota
ROBERT P. CASEY, Jr., Pennsylvania   DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           BOB CORKER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     ARLEN SPECTER, Pennsylvania
                     Debra Whitman, Staff Director
            Catherine Finley, Ranking Member Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Gordon H. Smith.....................     1

                                Panel I

Kelly Ryan, deputy assistant secretary, Bureau of Population, 
  Refugees and Migration (PRM), Department of State, Washington, 
  DC.............................................................     3
Brent Orell, acting director, Office of Refugee Resettlement 
  (ORR), Administration for Children and Families, Department of 
  Health and Human Services, Washington, DC......................    32
Michael Gabaudan, regional representative for the U.S. and 
  Caribbean, Office of the United Nations High Commission on 
  Human Rights, Washington, DC...................................    42

                                Panel II

Richard Parkins, chair, Refugee Council USA, Washington, DC......    50
Maria Teverovsky, MSSA, associate director, Refugee Family 
  Enrichment Program, Hebrew Immigrant Aid Society, New York, NY.    57
Salah Ansary, regional director, Lutheran Community Services, 
  Northwest, Portland, OR........................................    70
Khammany Mathavongsy, director, California Office of Southeast 
  Asia Resource Action Center, Washington, DC....................    82

                                APPENDIX

Remarks of Senator Herb Kohl.....................................    93
Ms. Teverovsky Responses to Senator Kohl's Questions.............    94
Responses to Senator Kohl's Questions from Mr. Mathavongsy.......    94
Material submitted by Immigrant Refugee Community Organization...    97

                                 (iii)

  


 FORCED TO FLEE: CARING FOR THE ELDERLY DISPLACED BY WAR, POVERTY AND 
                           PERSECUTION ABROAD

                              ----------                              --



                      WEDNESDAY, DECEMBER 5, 2007

                                       U.S. Senate,
                                Special Committee on Aging,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:30 a.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Gordon H. 
Smith, presiding.
    Present: Senator Smith.

  OPENING STATEMENT OF SENATOR GORDON H. SMITH, RANKING MEMBER

    Senator Smith. Good morning, ladies and gentlemen. You are 
the brave few that traversed the treacherous Washington traffic 
on a snowy morning. We welcome you all here.
    I had expected Senator Kohl, but I know he has been 
detained in the Judiciary Committee. With his blessing and 
encouragement, we are going to proceed without him, and he will 
join us if and when he can.
    I know some of you have come a short distance, but many of 
you have come a long way, including some from my home State of 
Oregon. However, I can safely say that probably none of us has 
come so far as the populations that we are here to discuss--the 
elderly refugees and asylees who are now in the United States.
    The goal of today's hearing is to learn more about the 
refugee populations that we have here in America and the needs 
of those who tend to be more frail and require supportive 
services--those who are elderly and disabled.
    The elderly refugees who come to our Nation have many of 
the same needs that nonelderly refugees have: a place to live, 
a job and a safe environment, and a means to connect to their 
new country. However, due to age and frailty, these needs 
become more difficult for many elderly refugees to obtain.
    In their times of need, there are resources to support 
them. Through the work of the State Department, the Department 
of Health and Human Services, other non federal organizations 
like the United Nations and refugee resettlement agencies, 
there is a network of support that aid in their transition to 
life in America. Today we are here to learn about these 
programs and to hear from the experts on how we can make 
improvements for elderly refugees.
    I think every child in America learned, and I certainly did 
as well, that our Nation is an immigrant Nation. It is where 
many have come as refugees. Many of our own families left 
native countries to find religious freedom, to escape war and 
poverty and persecution. As our Nation has grown and advanced, 
we have held close to our obligations to those in the world who 
are less fortunate and who seek a better life; one safe from 
harm.
    Many of the individuals we will discuss here today are 
elderly refugees who fled persecution or torture in their home 
countries. They include Jews fleeing religious persecution in 
the former Soviet Union. Iraqi Kurds fleeing the former Saddam 
Hussein regime. Cubans and Hmong people from the highlands of 
Laos who served on the side of the United States military 
during the Vietnam war.
    Many of these refugees are elderly, and some are disabled 
and unable to work. Some have come with their families, some 
have come alone. Many are working to learn, at an advanced age, 
a new language and a new culture.
    In my home State of Oregon, we have welcomed more than 
55,000 refugees from around the world since 1975. Nearly two-
thirds of Oregon's refugee population are from the former 
Soviet Union or Vietnam. Many of these refugees found 
themselves fighting for and otherwise helping the United States 
in war.
    The remaining one-third of Oregon's refugees come from many 
Nations who have found themselves in troubled times. Somalia, 
Cuba, Bosnia and Afghanistan are just a few. Of these refugees, 
many are elderly and some will require additional services and 
support as they age.
    To help refugees who are elderly and disabled, I introduced 
a bill with Senator Kohl that would allow them to retain their 
SSI, or another acronym in all our alphabet soup here, meaning 
supplemental security income (SSI). They get this until they 
gain their American citizenship, or at least ideally so.
    The bill that we have entitled ``SSI Extension for Elderly 
and Disabled Refugees Act'' is one important step we could take 
to make a significant impact in helping our most vulnerable.
    As many of you know, Congress modified this supplemental 
security income program to include a seven-year time limit on 
the receipt of benefits for refugees and asylees. 
Unfortunately, the naturalization process takes longer than 
seven years. Applicants are required to live in the United 
States for a minimum of five years prior to applying for 
citizenship. In addition to that time period, their application 
process often can take three or more years before resolution.
    Because of this time delay, many individuals are trapped in 
the system and faced with the loss of their SSI benefits. In 
fact, we know that, to date, more than 7,000 elderly and 
disabled refugees have lost their SSI benefits, and that 
another 16,000 are threatened to lose their benefits as well in 
coming years.
    The Bush Administration in its fiscal year 2008 budget 
acknowledged the necessity to correct this problem by 
dedicating funding to extend this population beyond the seven-
year limit. The legislation I introduced with Senator Kohl 
builds upon those efforts by the Administration by allowing an 
additional two years of benefits for these people, and other 
qualified humanitarian immigrants, including those whose 
benefits have expired in recent past.
    A similar bill that has passed the House, similar to the 
bill I am working to pass here in the Senate, would allow 
benefits to be extended for a third year for those same 
refugees who are awaiting a decision on a pending 
naturalization application. These policies are limited to 2010, 
and are completely offset in cost by a provision that will work 
to recapture Federal Government funds due to unemployment 
insurance fraud.
    I hope the Senate will soon pass this package, as it would 
send a message that we have not and will not turn our backs on 
the most vulnerable refugees. To penalize them as we currently 
do because of delays encountered through bureaucratic process 
seems unjust and certainly inappropriate.
    So I look forward to the testimony we will hear today from 
our panelists. We have a wide array of experts and dedicated 
witnesses ranging from the United Nations to the U.S. State 
Department, the U.S. Department of Health and Human Services, 
and representatives of many of the organizations that are the 
backbone of the services refugees can access in our Nation. 
They are truly dedicated people and we thank them for their 
service.
    Our first panel consists of Ms. Kelly Ryan. She is the 
deputy assistant at the Bureau of Population, Refugees and 
Migration at the State Department.
    So, Kelly, we appreciate your being here.
    Then Mr. Brent Orrell, the acting director of the Office of 
Refugee Resettlement at the Department of Health and Human 
Services.
    So thank you both for being here.
    Kelly, why don't we start with you.

STATEMENT OF KELLY RYAN, DEPUTY ASSISTANT SECRETARY, BUREAU OF 
    POPULATION, REFUGEES AND MIGRATION, DEPARTMENT OF STATE

    Ms. Ryan. Thank you very much, Senator Smith.
    It is a pleasure to appear before you today to discuss U.S. 
assistance to refugees, including U.S. efforts to protect 
elderly refugees here and abroad. With your permission, I would 
like to submit my formal statement for the record and use this 
opportunity to highlight the responsibilities of my bureau, 
Population, Refugees, and Migration.
    Senator Smith. Without objection.
    Ms. Ryan. Thank you. I am going to talk about our 
humanitarian assistance programs and the admission of refugees 
to the United States.
    PRM plays a major role in U.S. foreign assistance, 
administering nearly $1.1 billion in fiscal year 2007. These 
Congressionally appropriated monies were furnished to 
international organizations and NGO's to protect refugees, 
internally displaced persons, and other vulnerable persons 
including victims of conflict and trafficking.
    PRM-funded programs provide life-sustaining protection and 
relief to some of the world's most vulnerable populations, 
including women, children and the elderly.
    The United States and our international and NGO partners 
recognize that some elderly refugees can become, or are, 
extremely vulnerable. Some have medical challenges, some have 
become disabled, and some have been separated from family 
members through a variety of means.
    We fund and urge our international and NGO partners to 
ensure that services are designed with the most vulnerable in 
mind, including the elderly.
    The United Nations High Commissioner for Refugees, UNHCR's, 
age, gender, and diversity mainstreaming project is 
specifically focused on tailoring services to meeting the needs 
of vulnerable populations, including the elderly, whether by 
designing appropriate food distribution systems, providing 
mental health support as part of comprehensive healthcare, or 
emergency shelter assistance, particularly for those without 
other family members in camp or urban refugee settings.
    Assistance funds in particular support programs to provide 
basic assistance needs at internationally accepted standards, 
such as food, shelter, healthcare, water and sanitation.
    In fiscal year 2007, of the nearly $1.1 billion PRM 
programmed, some $847 million was expended on overseas 
assistance programs, and $171 million was used to administer 
the U.S. refugee admissions program.
    Senator Smith, it is a tragic reality that violence, 
insecurity and persecution continue, causing people to flee and 
resulting in a need for humanitarian protection and assistance. 
Our humanitarian aid is a hallmark of U.S. foreign policy 
engagement. We support durable solutions for refugees through a 
combination of diplomacy, program expertise and financial 
support for voluntary returns, local integration and 
resettlement to the United States.
    Refugee resettlement is a critical solution for a small 
number of the world's refugees. The number of refugees 
resettled annually in the U.S. is more than the total of 
refugees resettled by all resettlement countries combined.
    In fiscal year 2007, the U.S. resettled 48,281 refugees. In 
recent years, the United States has admitted refugees of over 
60 nationalities and conducted processing in over 40 remote 
locations worldwide. The program is more geographically diverse 
and operationally complicated than ever before, but we continue 
to find ways to make it more responsive.
    While the program is subject to many logistical and 
political challenges, it offers unparalleled opportunities for 
saving lives, reuniting families and ending protracted refugee 
situations.
    The Refugee Act of 1980 created the modern day refugee 
program, but we have welcomed refugees since the founding of 
our republic. The act directs the President to submit an annual 
report to Congress containing the Administration's proposal for 
the number of refugees to be admitted in the coming fiscal 
year. This proposal is prepared after extensive consultations 
within the Administration and with officials of UNHCR, other 
international organizations, as well as human rights and 
advocacy groups, and interested citizens.
    Following House and Senate Judiciary Committee 
consultations, the President issues a determination 
establishing the size and scope of the refugee program for the 
next fiscal year. For fiscal year 2008, the President 
authorized the admission of 80,000 refugees, allocated amongst 
geographic regions.
    PRM is responsible for coordinating and managing the 
admissions program. A key part of our work is determining who 
will be given access, thereby allowing them to apply for 
refugee admission to the U.S.
    Unlike some other resettlement countries, age, educational 
level, employability, English language ability or health 
conditions are not factors evaluated in determining which 
refugees should be considered for refugee status and for 
resettlement to the U.S. USCIS determines both eligibility and 
admissibility in accordance with U.S. law and policy.
    The refugee program assesses and considers vulnerabilities 
throughout refugee processing. Age-related vulnerabilities of 
both the very young and the elderly are factors in case 
composition, and can also be the basis for requests to UNHCR 
and USCIS for special process consideration. Elderly refugees 
who would be left in countries of first asylum without care or 
support should their family depart without them can and are 
included on refugee cases with USCIS agreement.
    PRM engages an overseas processing entity to assist in the 
processing of refugee applicants. These OPEs prescreen 
applicants and prepare the cases for CIS interviews. OPE staff 
guide the refugees through the post-adjudication steps, 
including the medical exams in close coordination with HHS, and 
attending cultural orientation programs. The OPE obtains 
sponsorship assurances and, once all required steps are 
completed, refers the case to the international organization 
for travel to the United States.
    Medical clearances are required for refugees prior to their 
resettlement to the U.S., and is particularly important for 
elderly refugees. In addition to having a higher prevalence of 
chronic medical conditions such as high blood pressure or 
diabetes, these refugees are more prone to developing certain 
infectious disease such as tuberculosis and other severe 
complications of certain vaccine-preventable diseases such as 
influenza.
    For these refugees, in addition to performing medical 
screening mandated by U.S. regulations, IOM also looks for 
signs of medical conditions that would require follow up after 
resettlement to the U.S.
    Our program strives to ensure that those who are accepted 
for admission are prepared for the significant life changes 
they will experience by providing cultural orientation programs 
prior to their departure.
    The State Department funds their travel through a program 
administrated by IOM. Refugees are responsible for repaying the 
travel costs over time, beginning 6 months after their arrival. 
The special travel arrangements are made by IOM as required, 
and elderly refugees get appropriate travel assistance.
    Prior to refugees' arrival in the U.S. domestic 
resettlement agencies receive biographic data on each arriving 
refugee. This includes age and any physical disabilities or 
chronic illnesses. This information is used by the receiving 
agencies to prepare appropriately for the arriving refugee.
    Consideration of age and physical limitations is used in 
the selection of housing, and also provides the opportunity for 
advance contact with local medical service providers to address 
medical needs immediately upon arrival.
    The Reception and Placement program is a unique public-
private partnership under which resettlement agencies 
contribute significant cash or in-kind resources to supplement 
U.S. per capita grants. PRM currently funds cooperative 
agreements with 10 entities--nine private voluntary agencies 
and one State, the State of Iowa--to provide initial 
resettlement services.
    Under this agreement, PRM provides voluntary agencies with 
$850 per refugee, of which the local affiliate must spend $425 
directly on each refugee to meet their immediate needs post-
arrival in the U.S. The R&P agencies agree to provide initial 
resettlement and core services to refugees, and these services 
are provided according to jointly agreed upon standards of 
care.
    The 10 organizations maintain a National network of 360 
affiliates. This program operates in close coordination with 
our colleagues from HHS and its HHS-funded grantees to begin to 
assist refugees through their programs after the PRM-funded 
initial resettlement activities are complete.
    Refugees may be lawfully employed upon arrival to the U.S. 
Some of our refugees who are over 65 are gainfully employed or 
are informally employed as caregivers for family member.
    After one year, a refugee is required to apply for 
adjustment of status to lawful permanent resident; 5 years 
after admission, refugees who have been lawfully admitted for 
permanent residency and who meet other statutory requirements, 
are eligible to apply for naturalization. We believe 
naturalization is critical for successful refugee integration 
and for those who may require further Federal assistance. Our 
resettlement partners assist elderly refugees in obtaining U.S. 
citizenship.
    Senator Smith, PRM's humanitarian assistance to refugees 
and its coordination of the U.S. resettlement program reinforce 
U.S. commitments to the principles of democracy and freedom. 
They support an overarching goal of President Bush's National 
security strategy to champion human dignity. This work is 
critical to U.S. foreign policy leadership.
    This concludes my oral statement and I would be happy to 
respond to any questions you may now have or following my 
colleague's presentation. Thank you.
    [The prepared statement of Ms. Ryan follows:]

    [GRAPHIC] [TIFF OMITTED] T2742.001
    
    [GRAPHIC] [TIFF OMITTED] T2742.002
    
    [GRAPHIC] [TIFF OMITTED] T2742.003
    
    [GRAPHIC] [TIFF OMITTED] T2742.004
    
    [GRAPHIC] [TIFF OMITTED] T2742.005
    
    [GRAPHIC] [TIFF OMITTED] T2742.006
    
    [GRAPHIC] [TIFF OMITTED] T2742.007
    
    [GRAPHIC] [TIFF OMITTED] T2742.008
    
    [GRAPHIC] [TIFF OMITTED] T2742.009
    
    [GRAPHIC] [TIFF OMITTED] T2742.010
    
    [GRAPHIC] [TIFF OMITTED] T2742.011
    
    [GRAPHIC] [TIFF OMITTED] T2742.012
    
    [GRAPHIC] [TIFF OMITTED] T2742.013
    
    [GRAPHIC] [TIFF OMITTED] T2742.014
    
    [GRAPHIC] [TIFF OMITTED] T2742.015
    
    [GRAPHIC] [TIFF OMITTED] T2742.016
    
    [GRAPHIC] [TIFF OMITTED] T2742.017
    
    [GRAPHIC] [TIFF OMITTED] T2742.018
    
    [GRAPHIC] [TIFF OMITTED] T2742.019
    
    [GRAPHIC] [TIFF OMITTED] T2742.020
    
    [GRAPHIC] [TIFF OMITTED] T2742.021
    
    [GRAPHIC] [TIFF OMITTED] T2742.022
    
    [GRAPHIC] [TIFF OMITTED] T2742.023
    
    [GRAPHIC] [TIFF OMITTED] T2742.024
    
    Senator Smith. Kelly, are you getting all the medical and 
cultural information you need from other organizations, the 
U.N. and others, on those who are coming here, to help them in 
terms of resettlement?
    Ms. Ryan. We try to obtain information from the refugee 
themselves, as well as our colleagues at UNHCR and IOM. IOM has 
doctors--in particular on the medical side--that conduct the 
prescreening for us on the medical issues. I think a key 
communication element is what I have discussed with the 
biographic data. That information is critical to making sure 
that, upon resettlement, the--our affiliate has the information 
in order to make the right judgment about how to help the 
refugee.
    Can we do better? Probably.
    Senator Smith. Do you have enough information?
    Ms. Ryan. I think we have a lot of information. I think we 
can always do better. But we are trying to really make sure 
that there are no surprises for the resettlement agency or for 
the refugees upon his or her arrival.
    Senator Smith. Do you have data on the number of refugees, 
elderly refugees that arrive every year?
    Ms. Ryan. Yes, sir. We--last year--I have the figures for 
you. I am counting elderly as over 65, although I know there is 
some debate about the age break-off. But out of the 48,281 who 
arrived in last fiscal year, 1,386 were over the age of 65. So 
that is a 2.8 percent ratio.
    Senator Smith. Now, I understand there is a cap of 70,000 
that you could take in. I don't know why we only take in 
48,000. Is that all that apply?
    Ms. Ryan. We have had some difficulty based on some changes 
to the law in the Real ID Act and the Patriot Act that have 
stopped some of the arrivals based on an expanded provision 
that we are working with Congress to address. But this year we 
are funded right now to admit 70,000, but we are authorized to 
admit up to 80,000. We hope to use as many of those places as 
possible, sir.
    Senator Smith. Well, what is the reason why the 20,000 plus 
that could be here aren't?
    Ms. Ryan. The chief reason in the past several years has 
been the change in the law on material support. So some of our 
Burmese refugees, for example, have not been able to obtain 
exemptions under the law. So we are looking at trying to have a 
legislative fix on that.
    We have also had some difficulties with medical screening 
that has pushed us a little bit back.
    Senator Smith. But otherwise, there would be 70,000?
    Ms. Ryan. Yes. We are trying to move up, up, up. We are 
trying to use the places that the President has authorized.
    Senator Smith. So it is not an issue of demand for 
admission.
    Ms. Ryan. No, sir.
    Senator Smith. OK. Well, thank you, Kelly.
    Ms. Ryan. You are welcome.
    Senator Smith. Brent, take it away.

 STATEMENT OF BRENT ORRELL, ACTING DIRECTOR, OFFICE OF REFUGEE 
    RESETTLEMENT, ADMINISTRATION FOR CHILDREN AND FAMILIES, 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Mr. Orrell. Senator Smith, I would like to thank you for 
the opportunity to testify on assistance provided by the Office 
of Refugee Resettlement to elderly refugees.
    Just as a personal point, it is a special honor to be 
before you. You are the senator from my home State of Oregon.
    Senator Smith. What town are you from, Brent?
    Mr. Orrell. Sherwood.
    Senator Smith. Sherwood.
    Mr. Orrell. Yes.
    Senator Smith. Nice town, Brent.
    Mr. Orrell. Yes. Yes. Thanks. So it is great my first 
showing here before the Congressional Committee is also in 
front of a senator from my home State.
    Senator Smith. I hope it is not too big a disappointment . 
. .
    Mr. Orrell. Yes. Yes.
    Senator Smith. . . . on my part.
    Mr. Orrell. It is perfect, actually, so . . .
    My testimony today will provide general background 
information on elderly refugee populations and the type of 
services that are made available for this unique population. 
With the Committee's approval I will also be submitting a full 
statement for the record.
    Senator Smith. We will receive that.
    Mr. Orrell. Great.
    In 2005, the principle groups of arriving refugees included 
Hmong and Burmese from Thailand, Bantu from East Africa, 
Liberians from West Africa, Vietnamese from the Philippines, 
and Meskhetian Turks from Russia. Each of these nationalities 
faces unique resettlement challenges reflecting the difficult 
circumstances they faced prior to their arrival.
    Approximately 46,000 refugees 65 years or older were 
admitted to the United States between 2001 and 2007. For older 
refugees, there are issues which make them particularly 
vulnerable to poverty, abuse, neglect or exploitation. These 
include chronic health and emotional problems stemming from the 
conditions of refugee flight; family loss and separation; an 
inability to advocate for themselves because of cultural, 
language, or educational barriers; limited access to health and 
social services agencies; and limited incomes due to work 
histories.
    Elderly refugees are eligible for all the benefits and 
services that are available to all age groups of new arrivals. 
Those provisions include up to 8 months of cash and medical 
assistance; health screening and assessment; and a broad range 
of supportive services such as employment services, English 
language instruction, case management and citizenship and 
naturalization preparation.
    Additionally, ORR has taken a leadership role in targeting 
specific programs for elderly refugees. For the past 10 years 
we have funded grants to help link older refugees with 
mainstream aging programs in their local communities to enable 
them to remain independent as long as possible.
    Currently, ORR funds 21 such grants, totaling $3.5 million, 
to State refugee agencies to provide supportive and social 
services to 12,100 older refugees. These projects initiate, 
expand and encourage collaborative partnerships between 
domestic resettlement services providers and the aging networks 
at the State and local community levels.
    Through ORR's Elderly Refugee Discretionary Program, we 
also link older refugees with the services of the Senior 
Community Service Employment Program that is administered by 
the U.S. Department of Labor. This 40-year-old program provides 
part-time employment and training opportunities for low income 
adults age 55 and over.
    The program serves the community by providing useful 
community services, and fostering individual economic self-
sufficiency for older adults who may experience barriers to 
gainful employment.
    For those older refugees who are unable to work, the 
Elderly Refugee Discretionary Grant Program also supports 
services and programs aimed at helping the refugees become 
naturalized U.S. citizens.
    Examples of State programs under the Elderly Refugee 
Program include a project in Wisconsin that provides 500 older 
refugees with case management, social integration services, 
citizenship assistance, social and medical translation, 
transportation, health and nutrition assistance. We also have a 
project in the Portland metropolitan area to create a complete 
network of services to benefit refugee seniors.
    Within the Department of Health and Human Services, ORR 
works closely with other agencies like the Administration on 
Aging. An interagency agreement with AOA is in place to ensure 
that there is a coordinated response to link older refugees to 
Older American Act programs and services.
    ORR encourages its network of domestic resettlement 
agencies to work closely with 56 State units on aging and 655 
area agencies on aging to help ensure that older people remain 
as independent as possible in their communities.
    Finally, while not under the jurisdiction of ORR, I think 
it is important to mention the assistance that refugees who are 
aged, blind or disabled receive through the SSI program. This 
is the most common form of cash assistance that elderly 
refugees receive. In 2005 about 14 percent of all refugee 
households received SSI payments.
    The Office of Refugee Resettlement understands that older 
refugees face unique challenges in integrating into the 
American culture. They are beginning a new life in a new place 
far from home, often without benefit of understanding English 
and facing a unique and unknown cultural situation.
    These challenges, combined with age-related medical 
concerns, make improving the availability of health services 
and community resources critical for this population. In 
response, ORR continues to work with our State and Federal 
partners to safeguard the interests of these refugees. We 
appreciate the support that Congress gives us in addressing 
these issues.
    I will be glad to take . . .
    Senator Smith. Brent, to that point . . .
    Mr. Orrell. . . . Any questions you have.
    [The prepared statement of Mr. Orrell follows:]

    [GRAPHIC] [TIFF OMITTED] T2742.025
    
    [GRAPHIC] [TIFF OMITTED] T2742.026
    
    [GRAPHIC] [TIFF OMITTED] T2742.027
    
    [GRAPHIC] [TIFF OMITTED] T2742.028
    
    [GRAPHIC] [TIFF OMITTED] T2742.029
    
    [GRAPHIC] [TIFF OMITTED] T2742.030
    
    [GRAPHIC] [TIFF OMITTED] T2742.031
    
    Senator Smith. I understand that there is an account called 
the Older Refugees Program that has allocated $3.5 million for 
discretionary grants to states.
    Mr. Orrell. That is right.
    Senator Smith. Now, am I wrong that it has been scaled back 
or cut? Does it serve the people you are talking about?
    Mr. Orrell. It does. I don't believe it has been scaled 
back.
    Senator Smith. OK.
    Mr. Orrell. We have--it is a total of 21 grants to 21 
states providing these services. We only had.
    Senator Smith. Is that because they are the states getting 
most of the refugees?
    Mr. Orrell. Those--actually, the large states that receive 
the largest number of refugees are receiving these grants. A 
number of other states that are receiving refugees also get 
these grants.
    We had a total of 27 applications and we funded 21 of those 
applications last year to provide these kinds of coordination 
services for elderly refugees.
    Senator Smith. I see. Do you think it is a good program?
    Mr. Orrell. I believe it is. I have been the acting 
director for about 6 weeks, so I am still feeling my way 
through these programs. But the feedback we get from most of 
our programs is quite good.
    Senator Smith. I am curious. Is Oregon one of the 21 
States?
    Mr. Orrell. It is.
    Senator Smith. OK.
    Mr. Orrell. Yes.
    Senator Smith. The services that the ORR provides include 
grants to states and state alternative programs for public, 
private, nonprofits to ensure that refugees age 60 and above 
are linked to mainstream aging services in their community. Is 
this happening?
    Mr. Orrell. That is, the core purpose of those 21 grants . 
. .
    Senator Smith. OK.
    Mr. Orrell. Is really to try to build partnerships between 
the refugee programs and those programs that are serving 
elderly, whether they are refugees or not.
    I think one of the chief barriers that every refugee faces 
in coming to the United States is social isolation and a need 
to do as much work as we can to link refugees to services, and 
also make--just bring them into the mainstream of American 
society.
    Senator Smith. Am I correct that once they have completed 
naturalization process this program is no longer available to 
them?
    Mr. Orrell. That is correct, yes.
    Senator Smith. You know, the problem with legislating is 
you have to draw a line somewhere.
    Mr. Orrell. Right.
    Senator Smith. Wherever you draw a line there are some 
people on one side and some on the other. I am sure there are 
examples where maybe it wasn't the most humane thing to cut 
them off right at that point. But I assume that they fully know 
that these services go away once they become naturalized.
    Mr. Orrell. I would think that, after having been in the 
country that long and having been in case management systems 
and talking with experts that run the programs at the local 
level, they are fairly well aware of the limitations on the 
services that are available.
    Senator Smith. Is there any need for any flexibility in 
that? I am not advocating, I am just wondering. Do we create 
some hardships that a little bit of flexibility could help?
    Mr. Orrell. I hesitate to offer an opinion on it.
    Senator Smith. Yes.
    Mr. Orrell. But I will say that in other programs we do 
think about those kinds of transitions, that there would be 
some opportunity--it wouldn't necessarily be a bad idea for 
there to be some transitional period.
    Senator Smith. OK.
    Well, Brent, thank you.
    Kelly.
    To both of you, our appreciation for what you do. I suppose 
we can always do better, as Kelly said. But for what you do, we 
thank you and we hope in 2008 we will all do better.
    So we will call up our next panel then.
    Now, as you are taking your seats I will read your short 
biographies of you here. Panel two is just Mr. Michel Gabaudan.
    I am sorry if I mispronounced that at all, sir.
    He is the regional representative for the United States and 
the Caribbean at the Office of the United Nations High 
Commissioner for Refugees (UNHCR). He will provide an overview 
of the protection issues elderly refugees face, as well as the 
U.N.'s effort to address those challenges, both internationally 
and in the United States.
    Michel, thank you.

STATEMENT OF MICHEL GABAUDAN, REGIONAL REPRESENTATIVE, U.S. AND 
  CARIBBEAN, OFFICE OF THE UNITED NATIONS HIGH COMMISSION ON 
                          HUMAN RIGHTS

    Mr. Gabaudan. Thank you very much, Senator.
    I would like to express my appreciation on behalf of UNHCR 
for the opportunity to testify before you today on the unique 
protection challenges facing elderly refugees. We welcome this 
focus in part because addressing the needs of older refugees is 
truly emerging as an issue in the refugee field.
    Ten years ago, then High Commissioner Sadako Ogata, made a 
statement that ``The elderly are among the most invisible group 
of refugees and displaced persons, and I hope to change that.'' 
So have we 10 years after.
    We carried out the survey after Mrs. Ogata's decision on 
the elderly in 1977. I believe that since then we have made 
some strides in monitoring, assessing and addressing those 
needs in our field operations. But I must say up front that we 
recognize that much more still needs to be done. My hope is to 
provide you with some international context on the situation of 
refugees today.
    The elderly are a subgroup of the refugee community who are 
among the most at risk during armed conflict, during their 
subsequent flight, and while in exile. They are also a 
community whose needs are too often overlooked, as they 
frequently remain hidden within their own communities, as well 
as to the agencies which are there to help the displaced.
    Older refugees comprise approximately 10 percent of our 
overall population of concern, but the number ranges between 1 
and 2 percent of refugee population in some countries and up to 
30 percent in some others.
    For example, in Eastern Europe, refugee communities tend to 
have a high percentage of older refugees, perhaps due to a 
generally longer life expectancy in that region, to the fact 
that we deal there with very protracted situations, and perhaps 
with the conditions of flight which in many cases involves 
motorized means of exile.
    The elderly share distinct protection challenges that often 
differ from the rest of the refugee community. In situations of 
persecution, violence, conflict, and displacement older 
refugees are vulnerable to losing close family and caregivers. 
They are often physically incapable of fleeing with their 
families, or may become stranded during flight.
    In other cases families make the difficult decision during 
flight that results in the abandonment of their elders because 
of their lack of mobility or because of their state of health. 
Separation from their families means nothing less for these 
people than the collapse of the traditional support structures 
which in many communities assist the elderly.
    In certain countries public services that may normally be 
available to support the elderly in their country of origin 
often collapse during periods of political turmoil. For 
example, after the dissolution of the former Soviet Union, 
elders witnessed the disintegration of their health and pension 
plans, thus adding to their vulnerability and perhaps, as a 
result, increasing the chances they would be forced to flee.
    For those elders who are able to make their way to a 
country of asylum, protection challenges do not end once they 
have arrived in the host country. In both urban and camp 
settings, older persons often face marginalization within their 
families and communities.
    They may be unable to access the services that establish 
their status as refugees, including transportation, the 
provision of background information, and registration that can 
provide documentation and support. They also may have 
difficulty recalling or recounting with accuracy relevant 
details for these status interviews.
    Humanitarian aid workers, including our own staff, may lack 
the skills to identify the specific rights and needs of elderly 
refugees. This can lead to insufficient analysis of the 
protection risks, status, as well as a disregard of their 
capacities.
    Assistance efforts may neglect the specific needs of older 
refugees. Shelter, latrines and washing facilities must 
accommodate their restricted mobility, food distribution sites 
must be readily accessible, and food itself appropriate to 
their dietary needs.
    Healthcare programs mast have the ability to address 
chronic illnesses that are prevalent among older people, for 
example hypertension, diabetes, arthritis, and eye problems. 
These are medical conditions which are usually not at the 
forefront of the public health issues that we prioritize in 
planning our programs in refugee settings.
    The elderly generally have difficulties accessing programs 
that are geared toward self-sufficiency. These include 
vocational training, literacy classes, and income generation 
projects. Cash assistance, which can generate dependency, is 
often necessary to support the elderly who are unaccompanied 
and otherwise cannot support themselves, or whose families 
cannot care for them in an adequate way.
    Older refugees often are overlooked in the identification 
of durable solutions to refugee situations. Local integration 
in the host country may be hindered by language barriers, lack 
of employment opportunities, or lack of access to pension, 
health and education programs.
    Return programs tend to focus on younger families who may 
have an easier time rebuilding their lives and communities in 
the home country. This results in residual case loads left 
behind in host countries that are proportionately even more 
heavily comprised of elders.
    Resettlement programs which should benefit the most 
vulnerable ironically also at times discriminates against the 
elderly due to the preference of many resettlement countries 
for able-bodied refugees who can more easily integrate into the 
receiving societies.
    But here I must make a proviso that your country is the 
resettlement country that is the most generous in not putting 
conditions on the person who submits and not having criteria 
that are based on the potential for integration which, 
unfortunately, many other resettlement countries impose upon 
us.
    Senator Smith. All right. Because that was one of the 
questions I was going to ask you. How does the U.S. stack up 
compared to other countries on this?
    Mr. Gabaudan. Well, in respect to elders, much better. I 
mean, you are not only the largest resettlement country, but 
the criteria for resettlement in the U.S. are based on needs 
and not on the potential for integration, so you have the most 
broad criteria. If you are convinced of the needs you will 
accept.
    We do tend when we present families to include a broad 
definition of the family unity, which will include the elderly 
which some other countries refuse.
    Senator Smith. They refuse them because they say, well, you 
can't be productive so we don't want you.
    Mr. Gabaudan. Exactly. They will be a drag on social 
system.
    Senator Smith. I see.
    Mr. Gabaudan. So the U.S. in that respect fares much better 
than other countries.
    Senator Smith. Oh, that is nice to hear.
    Mr. Gabaudan. Responds well to our requests.
    Senator, in response to the needs of the most vulnerable, 3 
years ago UNHCR has developed what Kelly was mentioning, an 
approach to enhance refugee protection for all members of the 
community which we call the Age, Gender and Diversity 
Mainstreaming--AGDM--process.
    This process obliges UNHCR representatives to program our 
activities through a participatory planning mechanism where we 
have to sit with refugees divided into subsets of the refugee 
community, therefore providing a structure to ensure that the 
rights and needs of those who might otherwise be marginalized 
can be addressed.
    This, Age, Gender, and Diversity Mainstreaming (AGDM) 
process has begun to service many of the needs of the elderly 
that have historically been overlooked, many of which I have 
previously outlined. In response, we are now attempting to 
enhance our protection response to elderly refugees and to 
raise awareness among our staff of these specific needs.
    This effort has resulted in concrete improvements 
including:
    The early identification of, and care for, older persons 
with special needs in emergency settings.
    Prevention measures to ensure that the elderly are not 
abandoned by their families.
    The regularization of the status of the elderly so that 
they can receive benefits for which they are eligible.
    The consistent collection of data and incorporation of age 
sensitive protection and assistance criteria to help assess, 
monitor, and address the needs of the elderly and to ensure 
their inclusion in durable solution efforts.
    More effective outreach to refugees through community 
services programs such as the creation of community centers and 
mobile registration and health clinics.
    Not least, enhanced training of staff and the development 
of effective partnerships with government agencies and NGO's to 
address more effectively the needs of the elderly.
    In closing, Senator, I would also like to note that this 
AGDM process has reminded us that the elderly must not only be 
supported due to the protection problems they may face, but 
also because they can serve as significant assets in their 
communities.
    For example, because conflict may result in the absence or 
death of parents, the elderly often step in to become the 
primary caregivers to children. The elderly also often serve as 
the informal or formal leaders of their communities.
    This role means that elderly refugees can contribute to the 
implementation of protection and assistance programs during 
displacement. They can also contribute to peace and 
reconciliation efforts. To halt the cycle of displacement, 
elderly refugees can serve as the transmitters of culture, 
skills and crafts that will sustain the tradition of displaced 
communities.
    In conclusion, I would like to say that the proper focus on 
the elderly is therefore not only an issue of addressing 
vulnerability, but this is an opportunity to strengthen 
communities and to improve our overall capacity to respond to 
the needs of the whole displaced communities.
    I would like to thank you very much, Senator, to have 
included refugees in the purview of your Committee. Thank you 
very much.
    Senator Smith. Well, thank you, Michel. I really want to 
commend you for what the UN is doing on this issue. You are out 
there where the rubber meets the road and you see how many 
different countries do it.
    You mention the AGDM survey you took--or the initiative, 
rather. I am wondering if what the U.N. has learned from this 
initiative that could apply to U.S. programs? Can you identify 
anything where you think we can do a better job?
    Mr. Gabaudan. Well, I think you do already quite a good 
job, Senator, to be honest. I think we can always all improve 
on what we do. What this process has told us is that, when you 
look for issues you find them. You find that the solutions are 
not all that difficult.
    Senator Smith. Yes.
    Mr. Gabaudan. We don't have an overall response to elderly. 
But through this participatory planning we identify specific 
responses to particular refugee circumstances that depend very 
much on the culture of a given population.
    So this is--we think a system--as I said, representatives 
now are obliged to go through that. It is a process we roll out 
and it is becoming part of the normal functioning of the 
organization.
    It is still a little bit in pampers, but I think we are 
learning from it and certainly seeing that what we identify 
does not necessarily require very increased resources. It 
requires a better use of the resources we have.
    Senator Smith. Yes.
    Well, I a you, Michel. You know, don't be shy. If you see 
things that we can do better let us know and we will do our 
best. I don't suppose anybody does it perfectly, but I am proud 
of this country and the efforts that we make in this regard. 
But that doesn't relieve us of the responsibility to always try 
to do better.
    Thank you for your time.
    Mr. Gabaudan. It is good to be here.
    [The prepared statement of Mr. Gabaudan follows:]

    [GRAPHIC] [TIFF OMITTED] T2742.032
    
    [GRAPHIC] [TIFF OMITTED] T2742.033
    
    [GRAPHIC] [TIFF OMITTED] T2742.034
    
    Senator Smith. Thank you very much.
    We will call up now our third panel. That consists of 
Richard Parkins who is the chair of the Refugee Council USA. He 
will discuss how the council serves as an umbrella group for 
national resettlement organizations.
    Ms. Maria Teverovsky, who is the associate director for the 
Refugee Family Enrichment Program, Hebrew Immigrant Aid 
Society. She came to the U.S. as a refugee herself and will 
discuss issues surrounding resettlement of the elderly refugee 
population with a focus on Jewish refugees.
    Mr. Salah Ansary is the regional director of the Lutheran 
Community Services, Northwest. I am particularly pleased that 
you are here, Salah, because you are from Oregon. I always love 
it when a constituent can experience the same thing I do on a 
nearly weekly basis, which is a very long plane ride.
    He will discuss the obstacles, struggles, and successes of 
refugees, in particular the elderly refugees in Oregon and the 
greater Northwest.
    Mr. Khammany Mathavongsy. I apologize. I am not so good at 
names, but very good to have you here. Thank you. Please give 
me the correct pronunciation.
    Mr. Mathavongsy. It is Mathavongsy.
    Senator Smith. Mathavongsy. Very good.
    Well, why don't we start with you, Richard.

  STATEMENT OF RICHARD PARKINS, CHAIRMAN, REFUGEE COUNCIL USA

    Mr. Parkins. Good morning, Senator.
    As chair of the Refugee Council USA, we are a coalition of 
23 organizations dedicated to the welfare and the protection of 
refugees. I am pleased this morning to be one of the several 
witnesses who will speak to you today.
    I also happen to be the director of Episcopal Migration 
Ministries, which is the refugee and immigration assistance arm 
of the Episcopal Church in the United States.
    We of course are deeply interested in the protection and 
welfare of elderly refugees. As has been mentioned several 
times this morning, they are not only the most vulnerable of 
those whom we resettle, but are also the custodians of the 
culture and the social mores that get transferred to the new 
environment in which refugees find themselves.
    As you know, the resettlement of refugees in the United 
States is the responsibility of the 10 agencies that was 
mentioned this morning by my colleague from the State 
Department. Through these affiliate operations we are providing 
direct services to refugees, and most particularly to the 
vulnerable among the refugees population. Indeed, the elderly 
are a significant part of that group.
    But let me first commend the Committee for expressing a 
concern for elderly refugees. Your interest indicates that you 
understand clearly that services which communities and 
governments provide to the elderly need to include outreach to 
elderly refugees.
    Unless those agencies and groups and institutions who serve 
the elderly recognize that elderly refugees are also 
stakeholders in their programs, an important segment of the 
elderly population will be overlooked.
    Most of the services today for refugees are focused on the 
initial transition period of resettlement and are 
understandable and quite legitimately biased toward employment 
and training since self-sufficiency has historically been the 
primary goal of the U.S. refugee assistance program.
    We are pleased, of course, that there has been increased 
awareness--some would suggest belated awareness, to the plight 
and to the needs of the elderly refugees. While some funds are 
provided to assist elderly refugees--and my agency, a private 
agency, has committed several thousand dollars to the care of 
elderly refugees through several of our affiliate offices--this 
group nevertheless does not get the attention that they deserve 
and need.
    Therefore, we would strongly urge that any publicly 
supported service for the elderly make it a matter of 
obligation that those communities hosting significant numbers 
of refugees accept a special responsibility to reach out to 
older refugees. Such outreach may well be the only assistance 
beyond family support that these vulnerable persons receive.
    Now, you have become aware this morning by work done by 
members of the council, primarily through the leadership of 
some of our member agencies such as the Hebrew Immigrant Aid 
Society or the Southeast Asian Resource Action Center, both of 
whom have been advocating for the message that you conveyed 
earlier this morning, and that is the need to extend SSI 
benefits to elderly refugees, particularly those who have not 
been able to meet the requirements of citizenship because of 
the impediments of language, age and culture.
    I must emphasize, as you well know, sir, that the SSI 
safety net needs to be extended to any at risk older refugee so 
that the protection and safety that they sought when they were 
admitted as refugees to the United States be available to them 
as they advance in years. To do less is to fail to complete the 
task of allowing them to recover from the trauma of being 
forcibly displaced.
    Furthermore, I would like to offer an observation on the 
gifts given to us by elderly refugees. Others will underscore 
this point. Our colleague from the United Nations High 
Commissioner for Refugees also made this observation. But as 
noted, they are often the cultural anchor for refugee 
communities as they attempt to respect their traditions while 
embracing the requirements of their adopted homeland.
    Most refugee cultures venerate age and are especially 
respectful of the contributions that parents and grandparents 
have made to their survival as a family and as a community. 
Even as refugees take on the requirements of a new society, 
their concern for their elderly kin continues.
    Their accommodation to life in the United States does not 
allow them to be indifferent to their older members. In fact, 
having their older family members adequately provided for is 
generally a priority which, if honored, allows the family to 
identify with the society which is welcoming them.
    Family ties are especially vital to the wellbeing of 
refugee families. If services and support can be extended to 
those elderly refugees who remain at risk, the wellbeing of the 
refugee family is enhanced.
    So therefore, the issue of extending SSI benefits to these 
vulnerable persons relates quite directly to the purposes and 
the goals and objectives of the U.S. resettlement program.
    A major challenge which refugees--and this is an 
observation made by our affiliate offices around the country--
and those who serve them, is having mainstream service 
providers take seriously the needs of refugees who are 
legitimate contenders for their services. While refugees may be 
eligible for services, the way in which services are designed 
and delivered can often inhibit access by these persons.
    Cultural norms and practices, as well as language barriers, 
can limit the value of mainstream services to the refugee 
community. Thus, the work that was noted this morning by the 
representative of the Office of Refugee Resettlement in helping 
local providers to do outreach to the elderly refugee is 
extremely important and needs to be supported and enhanced.
    Therefore, the refugee council would urge the Committee to 
consider in its deliberations the importance of providing 
services which are culturally and linguistically appropriate, 
and being very clear that the civil rights of refugees are only 
served when services are not only theoretically available, but 
are genuinely accessible because measures are taken to make 
these services relevant to their clients.
    A major premise of the U.S. refugee program is that special 
funds are designated largely to assist refugees as they are 
beginning their journey to a new life in the United States, and 
that mainstream providers recognize refugees as clients as they 
integrate themselves into their communities.
    Refugees come to the United States as an act of rescue. 
They come to the United States at our invitation. Because their 
experience of persecution and displacement--forcible 
displacement--confers upon them their designation as refugees, 
we also recognize that our hospitality to these newcomers must 
include the provision of special services and a safety net as 
is reflected in the SSI benefits.
    Since self-sufficiency is not always an appropriate goal 
for elderly refugees, their need for services and the safety 
net will exist long after the transitional period experienced 
by other refugees has passed. If there is any segment of the 
U.S. refugee population requiring access to services for 
extended periods of time, it is the elderly cohort.
    Now, I will defer to my colleagues from HIAS and SEARAC to 
elaborate more fully on the special needs of elderly refugees 
and our advocacy on their behalf.
    But in closing, sir, I want to thank the Committee for 
taking on the issue of elderly refugees, and for recognizing 
that their voice needs to be heard and their needs recognized 
as our Nation seeks a compassionate response to the needs of 
all our elderly members.
    In particularly, sir, I want to once again underscore the 
fact that elderly refugees are a significant part of the 
refugee community that we bring to the United States. It is our 
intention to continue to advocate for their needs and that 
adequate resources be provided to support those needs.
    Thank you, sir, for this opportunity to testify.
    [The prepared statement of Mr. Parkins follows:]

    [GRAPHIC] [TIFF OMITTED] T2742.035
    
    [GRAPHIC] [TIFF OMITTED] T2742.036
    
    [GRAPHIC] [TIFF OMITTED] T2742.037
    
    Senator Smith. Thank you, Richard. That was excellent 
testimony. You know, I couldn't agree with you more that we 
need to fix the SSI feature. I do want to represent, I think 
accurately, that there is very broad support for doing that and 
from the President for that.
    I even offered that on the floor recently, but it was 
objected to for reasons unrelated to the merits of the issue. 
So what we are looking for is the right legislative vehicles to 
leave the station, which we can hook this on, because it will 
make it all the way.
    Mr. Parkins. Thank you, sir. Your leadership is very much 
appreciated on this.
    Senator Smith. Well, you are welcome. I think you made the 
point in your testimony that if an elderly refugee has a family 
in which to come into it is just a whole lot better for them.
    But I wonder, can you give me a ballpark sense in your own 
experience how many elderly refugees come with no family to 
receive them?
    Mr. Parkins. I wouldn't be able to give you the statistic 
on that, but often what does happen is that the family will 
arrive and then they will petition to bring in the elderly 
member of the family.
    Senator Smith. I see.
    Mr. Parkins. So that is often the way the process works.
    Senator Smith. But you have probably seen cases where there 
is just some desperate refugee, elderly, and comes into our 
country with no family to receive them.
    Mr. Parkins. Yes. That is absolutely the case. In fact, I 
am sure some of my colleagues, both from HIAS and from the 
Southeast Asian Resource Action Center can speak more 
authoritatively to that, because they are at the front line 
serving these people.
    But we do have a program that we work through in Chicago 
where we have an affiliate office. There are significant 
numbers of both refugees and asylees and immigrants--and we are 
speaking primarily to refugees this morning, but there is this 
broader community of need that we also try to respond to.
    We do find that, in those situations, there are often 
elderly refugees who have almost no family connection except 
the informal connections that they have with the refugee 
community itself. So these services are extremely important for 
them.
    Senator Smith. You represent the great Episcopal cause, and 
I am wondering if the Episcopal faith has an outreach on this 
as well, that gives them another community in which to come 
into.
    Mr. Parkins. Yes, we do. In fact, we are through several of 
our affiliate offices supporting services for seniors. However, 
as you know, all of the resettlement agencies in this country 
serve members of all traditions and faiths. So there is only a 
fraction of our refugee case load that are a part of our faith 
tradition. But we are serving all refugees.
    Senator Smith. You
    Mr. Parkins. Whatever services we provide are available to 
all of the refugees.
    Senator Smith. Use the other faith traditions.
    Mr. Parkins. Absolutely.
    Senator Smith. Replicating what you do?
    Mr. Parkins. Absolutely.
    Senator Smith. I do, too.
    Mr. Parkins. Yes. I would say that all of the resettlement 
agencies through their affiliate structures are very sensitive 
to the need to provide services to senior refugees, yes. It is 
not uniquely our purpose. It is a purpose broadly shared by the 
resettlement community.
    Senator Smith. That is wonderful.
    Maria, thank you.

  STATEMENT OF MARIA TEVEROVSKY, ASSOCIATE DIRECTOR, REFUGEE 
    FAMILY ENRICHMENT PROGRAMS, HEBREW IMMIGRANT AID SOCIETY

    Ms. Teverovsky. Good morning, sir--Senator Smith. On behalf 
of the Hebrew Immigrant Aid Society it is my pleasure to be 
here today to discuss the psychological, social and cultural 
needs of elderly refugees and asylees.
    For more than 125 years HIAS, the migration arm of the 
American Jewish Community, has assisted in rescue, reunion, and 
resettlement of over 4.5 million migrants around the world and 
in the United States as an expression of Jewish tradition and 
values.
    Through my experience as director of HIAS' Refugee Family 
Enrichment Program and my previous experience as a social 
worker, I have become acutely familiar with the urgent 
psychological, social and cultural needs of elderly refugees.
    On a personal level, I came to the U.S. as a refugee from 
the former Soviet Union 10 years ago with my parents, who 
struggled through many of the issues that I will be speaking 
about today.
    HIAS has developed expertise on the issues faced by elderly 
refugees through its partnerships with affiliate Jewish social 
service agencies across the Nation, many of which provide 
targeted services to elderly refugees.
    HIAS' Refugee Family Enrichment Program, established in 
2002 with funds from ORR to provide marriage and relationship 
education and communication skills training to refugees, has 
also proven effective in assisting elderly refugees in their 
adjustment to the life in the U.S.
    Many elderly refugees suffer from depression and post-
traumatic stress disorder. Furthermore, many refugee cultures 
believe that mental health ailments are disgraceful, not only 
for the particular person, but to the whole community. As a 
result, many mental disorders suffered by the elderly go 
untreated.
    Many elderly refugees encounter difficulties with their 
family relationships upon arriving to the United States. I am 
sorry. Many arrive as widows and widowers and others have been 
separated from their loved ones for a long time during the 
conflicts.
    Even when families are able to stay together during or 
after migration, traditional family ties often transform which 
can lead to increased feelings of isolation and depression. 
Owing to the strains of migration, many couples that have lived 
together for many, many years find themselves on the verge of 
divorce or in high conflict relationships.
    Because refugees are often dealing with mental and physical 
health problems, they have an even harder time learning 
English. Many refugee elders may not have had access to 
education in their home countries and thus come to the United 
States illiterate in their own language.
    The inability to learn English has very serious 
implications for elderly refugees and asylees, from impeding 
their ability to access healthcare, protect themselves against 
fraud or crime, or even just banking and shopping, to serious 
health and social implications.
    Many elderly refugees also exhibit an extreme fear of 
authority due to previous traumatic experiences of persecution 
and war. This fear affects their ability to call 911 for 
emergency assistance or seek mental health assistance and puts 
them at a greater risk of being criminally victimized.
    Refugees do not become eligible for many public assistance 
programs available to seniors until the age of 65. Older 
refugees who haven't yet reached this age are less employable 
as a result of a variety of factors, including age, limited 
English proficiency, mental health problems and medical issues.
    Elderly refugees who do find employment typically have not 
worked long enough in this country to buildup savings or earn 
the Social Security benefits necessary for a secure retirement.
    As it was mentioned before, refugees often face 
communication barriers when trying to access healthcare, 
primarily due to a lack of qualified translators. Although 
State and Federal laws require the availability of 
linguistically and culturally appropriate healthcare, these 
services remain largely inaccessible for refugees due to 
inadequate funding, a lack of qualified translators, and the 
lack of public awareness of the issue.
    While naturalization is a challenging process for many 
immigrants, it can be particularly devastating for elderly and 
disabled refugees and asylees. In particular, refugees 
experience greater difficulties passing the citizenship 
examination and fulfilling the various requirements because of 
physical and mental disabilities, low educational levels, 
inability to speak English, and lack of access to 
naturalization outreach and educational programs.
    Elderly and disabled refugees who manage to complete the 
citizenship exam are faced with immigration processing delays 
that can make it impossible to achieve citizenship within 7 
years. As a result, many of these refugees lose their SSI 
benefits since Congress limited refugees' eligibility for SSI 
to 7 years.
    There is a great need for a stop-gap measure to provide 
immediate relief to the thousands of elderly refugees who have 
lost or are about to lose their SSI benefits. HIAS has long 
advocated that Congress repeal the 7-year time limit entirely, 
thereby delinking naturalization from SSI eligibility for 
humanitarian immigrants.
    Basing eligibility for life-sustaining assistance on 
citizenship not only debases citizenship, but puts many elderly 
and disabled refugees in financial dire straits, leaving them 
with no safety net.
    In addition to repealing the time limit on SSI eligibility 
for elderly and disabled refugees, HIAS makes the following 
recommendations to better serve the particular needs of elderly 
refugees and asylees:
    Increase support for psychological programs targeted 
directly at elderly refugees.
    Elderly refugees should continue to be eligible for some 
refugee services and programs, even after they become 
naturalized citizens.
    Provide ESL programs that specifically accommodate the 
different needs and learning abilities of elderly refugees by 
designing special programs for them.
    Ease citizenship task requirements for the elderly by 
exempting them from the English test and allowing them to take 
the civics test in their native language.
    The enforcement of Federal and State regulations regarding 
translation services in medical facilities should be enhanced, 
and additional funding should be provided to better recruit, 
train and certify medical interpreters and translators.
    In closing I would like to thank you for recognizing the 
importance of caring for elderly refugees and asylees who have 
been displaced by war and persecution in their home countries.
    Thank you very much.
    [The prepared statement of Ms. Teverovsky follows:]

    [GRAPHIC] [TIFF OMITTED] T2742.038
    
    [GRAPHIC] [TIFF OMITTED] T2742.039
    
    [GRAPHIC] [TIFF OMITTED] T2742.040
    
    [GRAPHIC] [TIFF OMITTED] T2742.041
    
    [GRAPHIC] [TIFF OMITTED] T2742.042
    
    [GRAPHIC] [TIFF OMITTED] T2742.043
    
    [GRAPHIC] [TIFF OMITTED] T2742.044
    
    [GRAPHIC] [TIFF OMITTED] T2742.045
    
    [GRAPHIC] [TIFF OMITTED] T2742.046
    
    Senator Smith. Thank you, Maria.
    I am just curious on a personal level. Where was your home 
in Russia?
    Ms. Teverovsky. Moscow.
    Senator Smith. Moscow. When did you come to the United 
States?
    Ms. Teverovsky. Exactly this date 10 years ago.
    Senator Smith. Welcome. Your English is great.
    Ms. Teverovsky. Thank you.
    Senator Smith. You didn't have any trouble learning it. Did 
you know it before?
    Ms. Teverovsky. I actually, yes.
    Senator Smith. You did.
    Ms. Teverovsky. Started learning it.
    Senator Smith. In school?
    Ms. Teverovsky. Yes.
    Senator Smith. I am struck by your comments about the extra 
difficulties in mental health. This is a personal passion and 
concern of mine. I assume you are speaking of mental health 
disorders unrelated to those that exist with normal aging?
    Ms. Teverovsky. Absolutely.
    Senator Smith. I can't remember names as well as I used to.
    I assume it comes from trauma of persecution and 
intolerance. Then that is compounded by what, the cultural 
shock of assimilating in this country?
    Ms. Teverovsky. Yes. It is--you put it absolutely the way 
it is. Also--I mentioned this fear of authorities that is 
absolutely overwhelming in older people. I can speak for Jewish 
people of former Soviet Union who lived through holocaust, 
stalin purges and anti-Semitism. My own mother was fired 
because she was Jewish.
    This makes them think of any authority as something you 
never deal with. It includes not only police and law 
enforcement, but social workers and doctors.
    Senator Smith. Is it your judgment that in this country we 
do not have sufficient mental health availability, 
accessibility for them?
    Ms. Teverovsky. You know, I believe that in this country we 
are blessed to have access to the best healthcare ever. My 
concern is cultural sensibility and linguistic--linguistic part 
of it because accessibility and quality of translation is 
really serious issue that is not being addressed enough. 
Translation is a profession and it has to be looked at as a 
profession.
    Senator Smith. Very well said. Thank you very much.
    Ms. Teverovsky. You are welcome. Thank you for having me.
    Senator Smith. Salah, take it away.

    STATEMENT OF SALAH ANSARY, REGIONAL DIRECTOR, LUTHERAN 
         COMMUNITY SERVICES, NORTHWEST, FORMER REFUGEE

    Mr. Ansary. The Honorable Senator Smith, thank you for the 
opportunity to come before you. I am deeply honored.
    I have a few letters also that some of our students, 
elderly students that have given to me to deliver to you. So I 
have those here in front of me.
    Senator Smith. We will include.
    Mr. Ansary. I would like to make it part of the record.
    Senator Smith. We will include them as part of the record.
    Mr. Ansary. Thank you.
    I am also here to convey the greetings of many of our elder 
and disabled refugees from the State of Oregon who personally 
could not be here, but wanted you to know that they have you in 
their thoughts and prayers as you deliberate on this very 
important bill that could provide much needed relief--much more 
relief in their lives.
    Many of these elders and disabled refugees attend 
citizenship classes at Lutheran Community Services Northwest. 
They also hope to meet our Oregon delegation in the near future 
in person in Oregon. They want to express their concern and 
struggles. They also would like to express proudly how proud 
they are to say that many of their children and grandchildren 
are proud U.S. citizen now and involved in many civic 
engagements.
    My very own daughter, who is sitting behind me here, is an 
example of that. She pays her own way to be here to witness 
this proceeding. A few years ago during college she spent one 
summer as an intern with Congressman Blumenauer.
    She is also here because of her grandmother, who is my 
mother, now a U.S. citizen, fled Afghanistan when the soviet 
invaded Afghanistan in 1980. She is on SSI. She is 78 years 
old, living independently.
    My mother has been a tremendous source of connection for my 
two daughters about their roots and cultural heritage. For the 
past 27 years of my work with refugees, elder refugees like my 
mother, who are instilling invaluable and rich cultural 
heritage to their grandchildren. As I understand, our very own 
senior senator from Oregon, Senator Ron Wyden's parents also 
emigrated from Germany.
    Unfortunately, the unintended consequences of Section 402 
of Welfare Reform Act of 1996 has caused tremendous hardship 
for many of our elder and disabled refugees. Refugees have 
suffered enormous tragedies in their lives.
    Sometimes I compare elder refugees to the majestic old 
growth trees in the Pacific Northwest that have been yanked 
from the roots that laments from the pain of separation. They 
are uprooted and forced out because of persecution in their 
homeland.
    The grim statistics from Social Security Administration 
points out that of the 48,000 elderly and disabled immigrants 
who have or are likely to reach their 7-year SSI limit between 
2004 and 2010, at least 74 percent are refugees.
    Fifty-seven of 48,000 or 20,100 are refugees and 
humanitarian immigrants from former Soviet Union, which Oregon 
has a number of those, a large number of refugees now. 
Seventeen percent or 8,200 from Asia. I think Wisconsin is one, 
which my colleague will talk about that, the Hmong refugees 
from Highland Laos. Sixteen percent, 7,600 from the Caribbean, 
mostly Cuban and Haitians. Eight percent, 3,900 from Africa.
    As we have welcomed the elder and disabled refugees, as 
some of my colleagues have pointed out here, we must also not 
abandon them until they stand on their feet.
    Refugees are proud, resilient and dignified people. As 
local community provider, we will do whatever we can to help. 
But we also feel that this is a joint responsibility. The 
injustice of 1996 welfare reform pertaining to this population 
we ask must be corrected.
    We applaud and are grateful for you, Senator Smith, in a 
bipartisan support or effort with Senator Kohl in introducing 
S. 821. We feel this is a step in the right direction. We ask 
you, all of the other members, to lend their support for this 
bill.
    I also would like to invite you and your staffers and some 
of your colleagues to visit with elder and disabled refugees to 
hear and learn about their heart-wrenching stories, challenges, 
dreams, aspirations, their gratitude and appreciation. I have 
no doubt in my mind upon hearing these stories you will be 
compelled to hasten the passage of this bill.
    In Oregon there are four faith-based agencies that resettle 
refugees: Lutheran Community Services Northwest, Catholic 
Charities, Ecumenical Ministries of Oregon and Jewish Family 
and Child Services. Other refugee service providers include the 
Immigrant and Refugee Community Organization called IRCO, the 
State and local government branches.
    Since 1975, Lutheran Community Services alone has resettled 
close to 30,000 refugees in the Northwest. Behind these numbers 
are individuals. Each has a unique story of suffering and 
survival, hopes for happiness and security, and individual 
strengths and talents to offer.
    The State of Oregon ranks ninth in this Nation for refugee 
resettlement. As you pointed out, 55,000 refugees have been 
resettled since 1975 in Oregon. The majority from Southeast 
Asia and, most recent, 18,000 from former Soviet Union and the 
rest from other countries of the world. Of course, these 
figures do not take into account birth and secondary migration 
into the State.
    The people of Oregon responded magnificently in welcoming 
many asylees and refugees with their love and support. In 
particular, the church congregations across our network have 
joined hands in welcoming the strangers. Oregon is known for 
its well-established and close coordination of services to 
refugees.
    The passage of Immigration and Nationality Act of 1980 
provided alternative approaches in seeking to reduce refugee 
dependency on welfare programs. Oregon was one of the first 
States to design and implement an innovative project that 
successfully demonstrated refugee could enter the job market 
and achieve their early self-sufficiency goals with adequate 
resources during their initial month of resettlement.
    Today, this public and private partnership continues in the 
State. We do make referrals of elder seniors to Aging Services, 
a county program. Lutheran Community Services and other faith-
based agencies administer cash eligibility determination and 
provide intensive case management services for all newly 
arrived refugees, asylees, during their first 8 months in the 
country, while IRCO, our partner agency, works to place them 
into jobs before their benefit expires.
    This function had previously been handled by the State 
welfare program. As I recall, former Senator Hatfield was a 
strong advocate and true champion for refugees who helped 
Oregon with such program innovation.
    Of course, Lutheran Community Services has a long history 
of providing services; 75 years or more. In 2001 joined the 
Lutheran Social Service of State of Washington to form Lutheran 
Community Services Northwest. It is a nonprofit agency and its 
mission to partner to partner with individuals, families, 
communities for health, justice and hope.
    For refugee resettlement work, Lutheran Community Service 
is affiliated with Immigration and Refugee Service--LIRS--a 
national voluntary agency, whose tireless advocacy on behalf of 
the uprooted spans 68 years.
    Lutheran Community Services, through their partnership with 
the State Department contracts with 26 affiliate Lutheran 
social service agencies across the country similar to what my 
colleague, Dick Parkins, mentioned about the EMM affiliate 
offices across the country.
    Lutheran Community Services provide an array of social 
services tailored toward the specific needs of refugees, such 
as the ESL, literacy program, youth mentorship program, mental 
health services for African and Slavic refugees, drug and 
alcohol treatment, immigration counseling services, citizenship 
services for elderly population, and African Women's 
Empowerment program.
    There are a total of 36 languages spoken by the staff in 
our Lutheran Community Services Multicultural Community 
Services, and offices in Portland, Vancouver and Seattle.
    I think in terms of the challenges that was pointed out--I 
don't know if I have time to mention some of those barriers 
that the elder refugees face. May I point out those? Do I have 
any time?
    Senator Smith. Well, yes. We are supposed to be done at 12, 
but we can also put them in the record, Salah.
    Mr. Ansary. OK. Why don't I just leave it for the record. 
Thank you.
    [The prepared statement of Mr. Ansary follows:]

    [GRAPHIC] [TIFF OMITTED] T2742.047
    
    [GRAPHIC] [TIFF OMITTED] T2742.048
    
    [GRAPHIC] [TIFF OMITTED] T2742.049
    
    [GRAPHIC] [TIFF OMITTED] T2742.050
    
    [GRAPHIC] [TIFF OMITTED] T2742.051
    
    [GRAPHIC] [TIFF OMITTED] T2742.052
    
    [GRAPHIC] [TIFF OMITTED] T2742.053
    
    [GRAPHIC] [TIFF OMITTED] T2742.054
    
    [GRAPHIC] [TIFF OMITTED] T2742.055
    
    Senator Smith. Well, Salah, I don't want to cut you short, 
but your testimony is very powerful and very heart-felt. You 
have been there, and I commend you for the work that you do and 
the Lutheran Community Services. You are working on the side of 
the angels, as the others are, and I can't thank you enough.
    Also want to thank your daughter for coming back here and 
at her expense to accompany you. It is just wonderful to have 
you here.
    Mr. Ansary. Thank you. Thank you.
    Senator Smith. Hopefully the storms pass in Oregon so when 
you go home you won't have too bumpy a ride.
    Mr. Ansary. Thank you. I think the storm has died down.
    Senator Smith. Yes. Thank you, Salah.
    Mr. Ansary. Thanks.
    Senator Smith. Khammany, take it away.

STATEMENT OF KHAMMANY MATHAVONGSY, DIRECTOR, CALIFORNIA OFFICE 
            OF SOUTHEAST ASIA RESOURCE ACTION CENTER

    Mr. Mathavongsy. Good morning. Thank you, Senator Smith.
    My name is Khammany Mathavongsy. I am with Southeast Asia 
Resource Action Center, better known as SEARAC and I am the 
director of the California office.
    SEARAC is a national organization established in 1979 to 
facilitate resettlement of Southeast Asian refugees from the 
countries of Laos, Cambodia and Vietnam. In the past 28 years 
we work to advance the interests of this community through 
leadership development, capacity building and public policy 
advocacy.
    Our work in California specifically focuses on empowering 
Southeast Asian elderly refugees and also bringing greatly 
needed attention to this underserved population. As a refugee 
myself, this hearing today is particularly importance for me.
    People from Laos, Cambodia and Vietnam constitute the 
largest group of refugees to ever build new lives in America. 
Many have made homes in the State that a member of this 
Committee represent, most notably Wisconsin, Minnesota, 
Florida, Pennsylvania and Oregon.
    These populations share a unique histories with this 
country because of their support of the United States during 
the war in Vietnam. Many resettled refugees--including our 
elders--fought alongside American troops, risking their lives 
in support of freedom and democracy.
    Contrary to the popular ``model minority myth'', which 
purports that all Asian-American are excelling and facing no 
obstacles, all too frequently, the very real needs and 
challenges that a large number of our southeast Asian 
population face are often overlooked.
    Many of the challenges facing these communities remain 
unaddressed. For example, according to the 2000 census, 29 
percent of the Cambodian-American population live below Federal 
poverty line. The same can be said.
    Senator Smith. Twenty-four percent?
    Mr. Mathavongsy. Twenty-nine percent.
    Senator Smith. Twenty-nine percent.
    Mr. Mathavongsy. The same can be said for 38 percent of 
Hmong, 19 percent of the Lao, and 16 percent of Vietnamese-
Americans.
    In our written testimony that we submitted for the record, 
we discussed in detail about the SSI 7-year limit for refugees. 
But because of the panel--our colleague here--has spoken in 
depth and explained the impact, I will hold my comments on SSI 
at this time. So I would like to highlight the Medicare Part D 
that has impact on our community.
    The intent of the Medicare Part D was to ensure that most 
vulnerable population receive the maximum level of protection. 
Since its inception in 2005, however, the Part D program has 
incurred numerous difficulties for our low-income Southeast 
Asian American elders.
    One of their ongoing challenges is the inability of our 
seniors to receive linguistically appropriate information from 
drug plan. Unable to read and write English, they require 
intensive one-on-one consumer counseling.
    Part D plans are also required to make important 
information accessible to these beneficiaries whose English 
proficiency is limited. Yet, according to a survey conducted by 
National Senior Citizens Law Center--this is from California--
drug plans failed their obligation to provide services in 
languages other than English.
    In fact, more than 60 percent of the calls placed to the 
call centers never reached an individual speaking the primary 
language of the caller. Lack of language access under Medicare 
Part D makes it nearly impossible for this population to 
navigate the already complex world around Part D program.
    Second, the minimal copayment required by Part D is also 
unduly burdensome and inequitable compared to other Medicaid 
recipient. Under Medicaid, they were unable to afford 
copayment. They were not denying necessarily medication.
    This financial requirement creates additional barriers for 
this vulnerable population. So I urge the Special Committee on 
Aging to ensure that the needs of our elders, especially 
disabled refugees, are made a priority.
    We would like to make the following recommendation 
pertaining to SSI and also Part D:
    Congress should enact legislation to delink the SSI 
eligibility from U.S. citizenship for refugees and humanitarian 
immigrants. At the very least, Congress should provide a stop-
gap measure of extending 7-year limit on SSI.
    In April 2007, member of this Committee introduced Medicare 
Part D Outreach and Enrollment Enhancement Act of 2007. Among 
other things, this piece of legislation seek additional funding 
for outreach and assistance for those who qualify for Medicare, 
but needed additional assistance navigating the program.
    So we applaud this effort and recommend that any 
Congressional effort to provide additional assistance on this 
topic take into consideration the importance of improving 
language access, and also provide culturally appropriate 
materials. Materials on Part D needed to also be made available 
in many languages and at appropriate literacy level.
    Congress should also ensure that the poorest and most 
vulnerable population are not financially devastated by Part D 
cost-sharing requirements by providing copayment assistance for 
dual eligible beneficiaries who receive both Medicare Part D 
and also Medicaid. Also, this would help eliminate the 
financial burden of low income seniors.
    The U.S. has been a leader in providing refuge for people 
around the world, many of whom have faced persecution, 
dislocation because of a conflict and war. Many who find refuge 
in the U.S. have been longtime allies and supporters of this 
country and as such, have risked their lives and those of their 
loved ones to be here.
    It is unimaginable that we would allow our disabled and 
elderly refugee population to endure further hardship and 
destitution because of unfair policies which do not take into 
consideration the unique circumstances of this vulnerable 
population.
    In conclusion, I like to thank the Committee, for the 
opportunity to highlight these issues affecting our Southeast 
Asian refugees and welcome any questions that you have.
    Thank you.
    [The prepared statement of Mr. Mathavongsy follows:]

    [GRAPHIC] [TIFF OMITTED] T2742.056
    
    [GRAPHIC] [TIFF OMITTED] T2742.057
    
    [GRAPHIC] [TIFF OMITTED] T2742.058
    
    [GRAPHIC] [TIFF OMITTED] T2742.059
    
    [GRAPHIC] [TIFF OMITTED] T2742.060
    
    [GRAPHIC] [TIFF OMITTED] T2742.061
    
    Senator Smith. Khammany, thank you very much.
    I am curious. For my own knowledge, how large is the Hmong 
population in the Highlands?
    Mr. Mathavongsy. In Laos?
    Senator Smith. Yes. How large of a community is it? How 
many millions of people?
    Mr. Mathavongsy. I don't have the number for that, but we 
do have a large number of Hmong population in Wisconsin and in 
your State, as well as California.
    Senator Smith. As a percentage of Hmong globally, how many 
were displaced by the Vietnam war?
    Mr. Mathavongsy. That I have to get back to you, sir. I 
don't have . . .
    Senator Smith. I am just curious.
    Mr. Mathavongsy. The number.
    Senator Smith. I just know the contribution you made in 
that very distressful war. We were grateful to the Hmong 
people, and we are glad many are American citizens and living 
among us and contributing to our society.
    I do believe that this Congress will get the seven-year 
extension done. I think it is imperative we do it for all the 
reasons that each of you have mentioned, and I support it 
fully.
    Whether we do the additional you speak of, it is certainly 
something Congress needs to take up and consider, and that much 
I can promise you. But I also know that passing a law around 
here is, well, let me put it this way. Our founders designed 
the Congress to be inefficient and we are pretty good at it. 
[Laughter.]
    But, when I get discouraged by that I am reminded that it 
is a good thing that it is hard to make laws because we only 
want the best laws. Good ideas persisted in long enough by good 
people become good laws. Our system's produced a pretty great 
Nation.
    We are grateful you are all here, and we salute you for 
your service. We thank you for your taking the time to be a 
part of this hearing. I wish more of my colleagues were here, 
but I don't want you to take that as an indication of lack of 
interest or support.
    You have contributed measurably to the record of the U.S. 
Senate. We have received many good ideas from you this morning 
of which we will take into our deliberations, committees, on 
the Senate floor, and in House-Senate conferences. We will get 
as many of them as we can to the President of the United States 
for his signature.
    So thank you all for being here and Salah for coming so 
far.
    Khammany, you came from Wisconsin. Is that where you live?
    Mr. Mathavongsy. California.
    Senator Smith. California. Well, you have come a long way, 
too. Try the Oregon Trail next time. [Laughter.]
    With that, our heart-felt thanks and we are adjourned.
    [Whereupon, at 12 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              


                      Remarks of Senator Herb Kohl

    I would like to thank Senator Smith for holding today's 
hearing; I would also like to thank the witnesses for their 
testimony and for being here today. The challenges facing 
elderly refugees are too often overlooked or ignored. I hope 
the testimony given here can shed some light on how we can 
better serve these individuals.
    In July of 2004, as Wisconsin was preparing for an influx 
of thousands of Hmong refugees, the Milwaukee Journal Sentinel 
ran a three part series on the challenges those refugees faced. 
The series painted a picture of a shared history--of fighting 
against Communist forces with the CIA during the ``secret war'' 
in Laos; living in refugee camps; fleeing to the U.S.; and 
starting anew in America. In relating the stories of 
individuals such as Chua Tong Vue, a 75 year old man living at 
the time in a refugee camp in Thailand, readers came away with 
a greater understanding for the obstacles refugees must 
overcome--both abroad and once they reach the U.S.
    A greater understanding of those challenges and finding 
ways to lessen them is the goal of today's hearing. The federal 
government certainly has a role to play in the resettlement of 
refugees. That role begins with the determination of who is 
considered a refugee and continues through helping them to 
adapt to life in America. We must ensure that we serve them as 
effectively as possible. I believe there is a lot of room for 
improvement, and I look forward to hearing the ideas and 
recommendations of today's witnesses.
    With more than 69,000 current and former refugees living in 
Wisconsin, I have a particular interest in this issue. 
Wisconsin is a leader in easing the transition for refugees 
with a strong record of combining federal, state and local 
resources. In addition, the hard work and coordination of 
volunteer agencies in the state--Catholic Charities, Jewish 
Families Services, United Refugee Services of Wisconsin, and 
Lutheran Social Services--is critical to the resettlement of 
refugees. Both the volunteer agencies and the State have proven 
their dedication to ensuring that refugees are granted access 
to all the tools they need to adapt. For example, in 2004, 
Governor Doyle appointed the Hmong Resettlement Task Force to 
study the needs of the Hmong refugee population. Comprised of a 
large coalition of interests and organizations, the Task Force 
made recommendations on how to improve access to a wide range 
of services--a testament to the State's dedication to serving 
this constituency.
    The federal government can and should be doing more to ease 
the burden of resettlement--especially for the elderly. For the 
past several years, I have worked with Senator Smith on one of 
the biggest challenges facing refugees in the US--the loss of 
SSI benefits due to a 7 year time limit. As many of you know, 
Supplemental Security Income, or SSI, provides minimal cash 
assistance to elderly and disabled individuals with little or 
no income. Due to short-sighted policy passed in the 1990's, 
elderly and disabled humanitarian immigrants have seven years 
to become citizens in order to remain eligible for these 
benefits. This is an inadequate amount of time, given the 
bureaucratic delays and hurdles these individuals face. Thus, 
thousands have already lost their benefits, and tens of 
thousands more will lose this important benefit if Congress 
does not enact our legislation.
    The Smith-Kohl bill, the SSI Extension for Elderly and 
Disabled Refugees Act, would extend SSI eligibility for two 
years for refugees and asylees, including those whose benefits 
recently expired. This legislation protects the estimated 
40,000 individuals who will lose these benefits if Congress 
doesn't act, and restores benefits to the thousands who have 
already seen them cut. I am very pleased that the House has 
passed by voice vote an offset version of our legislation. 
While I remain hopeful that the Senate can enact the bill 
before the end of this year, time is running out.
    I hope that today's hearing will help raise the profile of 
this and other challenges faced by elderly refugees in our 
country. Our policy toward refugees and asylees embodies the 
best of our country--compassion, opportunity, and freedom. I am 
proud of the example our policies set with respect to the 
treatment of those seeking refuge. But our commitment to these 
individuals cannot end with the decision to grant refugee 
status. The policies of compassion and opportunity should 
continue throughout the resettlement process. I want to again 
thank Senator Smith for having this hearing and thank the 
witnesses for attending today. I look forward to today's 
proceedings.
                                ------                                


          Ms. Teverovsky responses to Senator Kohl's questions

    Question. Ms. Teverovsky, can you speak to the level of 
coordination between the Office of Refugee Resettlement and the 
Administration on Aging? Does the current level of coordination 
best serve the needs of older refuges?
    Answer. I cannot speak to the level of coordination between 
ORR and the Administration on Aging.
    Question. Ms. Teverovsky, we have all heard about those 
individuals who have lost their SSI benefits and the thousands 
more who stand to lose them if Congress doesn't act. How has 
your organization helped those who have lost their benefits?
    Answer. The American Jewish community has demonstrated a 
steadfast commitment to ensuring that Jewish arrivals to the 
United States receive support if and when they need it. Jewish 
community action in response to the loss of SSI has ranged from 
English and citizenship training and naturalization application 
assistance; to garnering community resources to try to keep 
those who have lost their benefits from becoming hungry or 
homeless; to advocacy for restoring benefits at the local, 
state, and national levels. Although charitable efforts can be 
helpful, sufficient resources are unavailable to help all those 
losing SSI benefits under the seven year policy.
    Predicting the serious problems that would come to pass 
after welfare reform was adopted in 1996, HIAS developed a 
series of initiatives aimed at helping people--particularly in 
the Russian-speaking community--to naturalize. Despite HIAS' 
extensive efforts since the 1990s to preempt the looming 
problem, in 2003 considerable numbers of refugees around the 
country, who had been unable to naturalize and had fallen 
through the cracks because of language barriers, ill health or 
bureaucratic delays, began losing their SSI benefits. In the 
years 2003 and 2004, according to the Social Security 
Administration, close to 3,000 non-citizen refugees and asylees 
were terminated from SSI.
    In 2005, HIAS launched the National SSI Initiative, with 
staff dedicated exclusively to assessing the nationwide scope 
of the SSI program, providing data to HIAS' Washington, DC 
office to support ongoing efforts to achieve legislative 
change, providing naturalization assistance to individuals, 
producing citizenship and training materials, and developing a 
national network of professionals to provide pro bono 
assistance in preparing naturalization applications for needy 
refugees.
    Question. Ms. Teverovsky, Are you aware of any state 
efforts to protect those whose benefits have expired?
    Answer. There are six states--California, Illinois, Hawaii, 
Maine, New Hampshire, Nebraska--that have state-funded programs 
that provide cash-assistance to immigrants who are not eligible 
for coverage under the federal SSI program. However, these 
programs vary by state. Please see Attachment A for additional 
information about the programs available in these six states.
                                ------                                


       Responses to Senator Kohl's questions from Mr. Mathavongsy

    Question. Mr. Mathavongsy, what has been the effect of 
losing SSI benefits on the refugees your organization serves?
    Answer. For many Southeast Asian elderly and disabled 
refugees, Supplemental Security Income (SSI) is their lifeline. 
Without SSI benefits, many disabled elders may have no cash 
income and may not be able to meet their most basic needs, 
including paying for rent and essential medications. In most 
states, SSI recipients automatically qualify for Medicaid, 
especially for people with disabilities, this health coverage 
is critical. When and individual loses SSI benefits, he or she 
also loses automatic eligibility for Medicaid. When become 
destitue, the burden falls on family members who are also 
struggling to put food on the table. But most importantly, the 
human toll is profound; after the enactment of the 1996 
restrictions, newspapers reported that some refugees who were 
facing loss of their SSI benefits committed suicide and the 
recent SSI losses have once again raised the prospect of 
suicides. The following story illustrates the impacts of the 
seven year SSI time limit:
    Mr. K'Keng is a 75 years old Montagnard refugee from the 
central highlands of Vietnam. Mr. Keng, along with thousands of 
other Montagnards, were recruited and trained by the U.S. 
Special Forces to fight alongside American soldiers during the 
Vietnam War. In 1970, while serving in the Province 
Reconnaissance Unit (PRU), he was hit by pieces of B40 
artillery from the North Vietnamese Communists which injured 
his right eye and broke my left wrist and hand. His right eye 
was completely blind as a result of the injury. He also spent 6 
years in the Vietnamese communist prison camp. In 1996 his 
family was resettled in the United States through the 
Humanitarian Operation (HO) refugee resettlement program 
created for political prisoners.
    Both he and his wife found jobs shortly after they arrived 
in the U.S. working in a bakery. Three months later he was laid 
off because of his disabilities. He applied for SSI benefits. 
His wife continued to work until 2001 and when she was laid off 
she also applied for SSI benefits because of her age. Their SSI 
benefits were cut in February of 2003 because of the 7-year 
time limit. Since the loss of their SSI benefits, the only 
source of assistance for him and his wife is food stamps of 
$280 a month. They have no income. For this reason, his 20 year 
old son has had to leave his full-time enrollment in school to 
work full-time to help them financially. At the young age of 
20, his son has to delay his own educational goals to help 
provide food, shelter and other necessities for his family 
because they no longer receive SSI.
    Question. Mr. Mathavongsy, can you elaborate on what the 
initial experience is for a refugee coming into this country?
    Answer. As newly arrived refugees, it was not easy to make 
adjustment to new life in America due to the language 
difficulties, the sudden experience of ``culture shocks,'' and 
lack social support once the resettlement organizations/
sponsored families ended their initial three months of support. 
For refugees who speak English, it was a bit easier making the 
transition. However, for those families without the inability 
to speak English, it was a daily struggle to even learn to 
utilize public transit system and navigate the social services, 
searching for employment, enrolling children into local 
schools. For elderly refugees, the social isolation due to 
language barriers compounded with pre-existing conditions of 
Post Traumatic Stress Disorder (PSTS) put them at extremely 
vulnerable situation. Some of them went into long-term 
depression because they felt the sense of hopelessness and 
always depended on their adults family members for their basic 
needs. Nevertheless, the refugee service organizations such as 
ethnic community-based organizations or mutual assistance 
association (MAAs) have been one of the pillars to assist with 
initial adjustment and basic support services. MAA was the 
first organization that newly arrived refugees turn to for 
culturally appropriate services and integration programs. With 
bilingual staff who can interpret during the doctor's visits 
and filing out school enrollment forms, etc., newly arrived 
refugees received navigational support. Both Southeast Asian 
American MAAs, federal, and state agencies would mutually 
benefit from partnerships and collaborations, particularly to 
address the needs of approximately 15,000 Hmong refugees who 
just arrived from Wat Thamkrabok, a Buddhist temple in central 
Thailand. Southeast Asian American MAAs had to ensure that 
these new refugees were able to access services to address 
their many needs, but the sheer number of refugees has 
overwhelmed many of their resources. The federal agencies such 
as Office of Refugee Resettlement must financially support 
these MAAs who are best able to provide a combination of 
service delivery, advocacy, research, and cultural programs or 
who can direct their communities to other services.
    Question. How well do you think the Department of State and 
Health and Human Services prepare elderly refugees for starting 
life in the US?
    Answer. The Departments of State and Health and Human 
Services have done sufficient jobs to prepare working adults 
and children with new lives in the US through vocational ESL 
course, job training, and cultural orientation, but sometimes 
the elderly refugees were usually the forgotten populations 
because majority arrived as part of the large and extended 
families. Elderly refugees must also be the priority population 
in order to increase their knowledge about American cultural 
and familiarize themselves with the network of aging services 
such as Social Security, Medicare and Medicare Services and 
Area Agencies on Aging.
    Question. Your testimony mentions the lack of 
linguistically appropriate information for refugees. What 
should the federal government be doing in order to encourage 
the availability of translated materials and of translation 
services?
    Answer. Enforce Title VI of the Civil Rights Act of 1964 to 
ensure equal access to services, including health related 
benefits, for persons with limited English proficiency.
    Step up Congressional Oversight over Center for Medicare 
and Medicaid Services (CMS) to hold sponsored drug plans 
accountable for non-compliance of the Civil Rights Act.
    Funding national language access pilot that would promote 
access for Medicare beneficiaries.
    Better coordination of services within the Department of 
Health and Human Services (e.g. Center for Medicare and 
Medicaid Services, Social Security Administration, Office of 
Refugee Resettlement, Administration of Aging, etc...)
    Support of Ethnic Specific Service Agencies: Southeast 
Asian Mutual Assistance Associations (MAAs) and other ethnic-
specific organizations provide vital support for elderly 
refugees of their communities; however, services are often not 
funded by public and private funding. In order for MAAs to 
fully serve the older refugee community, we encourage federal 
agencies to support MAAs with resources.

[GRAPHIC] [TIFF OMITTED] T2742.062

[GRAPHIC] [TIFF OMITTED] T2742.063

[GRAPHIC] [TIFF OMITTED] T2742.064

[GRAPHIC] [TIFF OMITTED] T2742.065

[GRAPHIC] [TIFF OMITTED] T2742.066

[GRAPHIC] [TIFF OMITTED] T2742.067

[GRAPHIC] [TIFF OMITTED] T2742.068

[GRAPHIC] [TIFF OMITTED] T2742.069

                                 <all>

</pre></body></html>
